APPENDIX

App-1

APPENDIX A — DECISION AND ORDER
OF THE SUPREME COURT OF NEW YORK,
APPELLATE DIVISION, FOURTH DEPARTMENT,
DATED JANUARY 31, 2020

SUPREME COURT OF THE STATE OF NEW YORK
Appellate Division, Fourth Judicial Department
864
KA 18-00147
PRESENT: WHALEN, P.J., PERADOTTO, DEJOSEPH, AND NEMOYER, JJ.
THE PEOPLE OF THE STATE OF NEW YORK,
RESPONDENT,
V.
MELQUAN TUCKER,
DEFENDANT-APPELLANT.
OPINION AND ORDER
THE LEGAL AID BUREAU OF BUFFALO, INC., BUFFALO (ERIN A. KULESUS
OF COUNSEL), FOR DEFENDANT-APPELLANT.
CAROLINE A. WOJTASZEK, DISTRICT ATTORNEY, LOCKPORT (THOMAS H.
BRANDT OF COUNSEL), FOR RESPONDENT.
LETITIA JAMES, ATTORNEY GENERAL, ALBANY (DENNIS A. RAMBAUD OF
COUNSEL), FOR INTERVENOR-RESPONDENT.

App-2

Appeal from a judgment of the Supreme Court, Erie County (Russell P.
Buscaglia, A.J.), rendered January 8, 2018. The judgment convicted defendant,
upon a jury verdict, of criminal possession of a firearm.
It is hereby ORDERED that the judgment so appealed from is unanimously
affirmed.

Opinion by Peradotto, J.:

We conclude that New York’s criminal prohibition on the possession of a
handgun in the home without a license, as applied to defendant, does not violate the
Second Amendment of the Constitution of the United States.
I
Upon executing a no-knock search warrant, police officers entered a residence
in which defendant and other people were present. While searching a bedroom, the
police discovered a gun box in the closet containing a revolver, two cylinders, and
ammunition. The police also discovered in that bedroom, among other things,
defendant’s driver’s license and a bottle of medication prescribed to defendant. Later
DNA testing also connected defendant to the revolver. It is undisputed that defendant
did not have a license to possess a handgun, and defendant does not claim that he
had applied for one. Additionally, when the police first entered the residence, another
officer positioned outside had observed the codefendant jump from a first floor
window of another bedroom and saw numerous baggies, later determined to contain

App-3

heroin, fall from the codefendant’s person. The police also seized a small digital scale
from the kitchen of the residence.
Defendant and the codefendant were charged by joint indictment with criminal
possession of a controlled substance in the third degree (Penal Law § 220.16[1] ), and
defendant was separately charged in the indictment with criminal possession of a
firearm (§ 265.01–b [1]). Defendant moved to dismiss the criminal possession of a
firearm charge on the ground that the charge is unconstitutional as applied to him
because it violates his right under the Second Amendment to possess the revolver in
his home for self-defense. Defendant notified the Attorney General of the State of
New York pursuant to Executive Law § 71 that he was challenging the
constitutionality of Penal Law § 265.01–b (1). The People opposed the motion, and
defendant replied in further support of his constitutional challenge. Supreme Court
denied the motion.
Following trial, the jury rendered a verdict finding defendant guilty of criminal
possession of a firearm (Penal Law § 265.01–b [1]) but acquitting him of the drugrelated charge. Defendant now appeals, raising as his primary contention that the
court erred in denying his motion to dismiss the charge of criminal possession of a
firearm because, as applied to him, criminal prosecution under the statute for
possession of an unlicensed firearm violates his right under the Second Amendment
to possess the revolver in his home for self-defense. We note at the outset that the
issue before us does not involve a challenge to any particular provision of the licensing
requirement; instead, the central question is whether New York may constitutionally

App-4

impose any criminal sanction whatsoever on the unlicensed possession of a handgun
in the home.
II
New York has a long history of regulating the possession of firearms by persons
within the state, particularly by way of a licensing requirement. In the latter part of
the nineteenth century, the legislature enacted a law prohibiting any person under
18 years old from “hav[ing], carry[ing] or hav[ing] in his possession in any public
street, highway or place in any city” a pistol or firearm of any kind without a license
from a police magistrate of such city and making the violation thereof a misdemeanor
(L. 1884, ch. 46, § 8; see also L. 1883, ch. 375). In 1905, the legislature amended the
law to prohibit any person over 16 years old from carrying a concealed firearm in any
city or village without a license and to further prohibit any person from selling or
otherwise providing any pistol, revolver or other firearm to a person under 16 years
old (see L. 1905, ch. 92, §§ 1, 2).
As has been recounted in prior cases (see e.g. Kachalsky v. County of
Westchester, 701 F.3d 81, 84–85 [2d Cir.2012], cert. denied 569 U.S. 918 [2013]),
following an increase in shooting homicides and suicides committed with revolvers
and other concealable firearms during the early twentieth century, as reported in a
coroner’s office study, the legislature enacted the Sullivan Law to address the rise of
violent crimes associated with such weapons (see id.; People ex rel. Darling v. Warden
of City Prison, 154 App. Div. 413, 422–423 [1st Dept. 1913]; Revolver Killings Fast
Increasing, N.Y. Times, Jan. 30, 1911, at 4, col 4). The law made it a misdemeanor to

App-5

possess without a license “any pistol, revolver or other firearm of a size which may be
concealed upon the person” “in any city, village or town of th[e] state” (L. 1911, ch.
195, § 1). Although the First Department, in rejecting a challenge to the law shortly
after its passage, relied in part on the now-repudiated basis that the Second
Amendment does not apply to the states (see Darling, 154 App. Div. at 419), the court
also reasoned that the right conferred by statute (see Civil Rights Law § 4; People v.
Perkins, 62 A.D.3d 1160, 1161 [3d Dept. 2009], lv. denied 13 N.Y.3d 748 [2009]) was
not violated by the law inasmuch as the legislature had “passed a regulative, not a
prohibitory, act” in the proper exercise of its police powers to promote the safety of
the public (Darling, 154 App. Div. at 423). The First Department noted that prior
state laws regulating the carrying of concealed weapons had not “seem[ed] effective
in preventing crimes of violence” and that the legislature had therefore determined
to proceed “a step further with the regulatory legislation” concerning licensing in
order to prevent criminals from possessing handguns (id.).
The law was subsequently amended and recodified, and today New York
maintains its criminal prohibition on the possession of certain firearms, including
pistols and revolvers, without a valid license, even if such firearms remain in one’s
home (see Penal Law §§ 265.00[3]; 265.01[1]; 265.01–b [1]; 265.20[a][3]).
III
The Second Amendment provides that “[a] well regulated Militia, being
necessary to the security of a free State, the right of the people to keep and bear Arms,
shall not be infringed.” The Supreme Court of the United States has held that the

App-6

amendment confers an individual right to keep and bear arms for lawful purposes,
such as self-defense in the home (see District of Columbia v. Heller, 554 U.S. 570
[2008]), and that the right is fully applicable to the states (see McDonald v. City of
Chicago, 561 U.S. 742 [2010]). The Court held that self-defense is the central
component of the Second Amendment right and stated that “the need for defense of
self, family, and property is most acute” in the home and that handguns are “the most
preferred firearm in the nation to keep and use for protection of one’s home and
family” (Heller, 554 U.S. at 628–629 [internal quotation marks omitted]; see id. at
599; see also McDonald, 561 U.S. at 767). The Court thus struck down laws that
effectuated complete bans on in-home possession of handguns (see McDonald, 561
U.S. at 791; Heller, 554 U.S. at 635).
The Court also recognized, however, that “the right secured by the Second
Amendment is not unlimited” and has never been understood as allowing one “to keep
and carry any weapon whatsoever in any manner whatsoever and for whatever
purpose” (Heller, 554 U.S. at 626; see generally Robertson v. Baldwin, 165 U.S. 275,
281–282 [1897]). The Court made clear that its holdings “did not cast doubt on such
longstanding regulatory measures as ‘prohibitions on the possession of firearms by
felons and the mentally ill,’ ‘laws forbidding the carrying of firearms in sensitive
places such as schools and government buildings, or laws imposing conditions and
qualifications on the commercial sale of arms’ “ (McDonald, 561 U.S. at 786, quoting
Heller, 554 U.S. at 627–628). Such “presumptively lawful regulatory measures” were

App-7

offered “only as examples” rather than as an exhaustive list (Heller, 554 U.S. at 627
n. 26).
In light of the lack of detailed guidance offered in Heller and McDonald
regarding the manner in which Second Amendment challenges to firearms legislation
should be evaluated, the courts began to develop an analytical framework for
reviewing such challenges (see generally New York State Rifle & Pistol Assn., Inc. v.
Cuomo, 804 F.3d 242, 252–254 [2d Cir.2015], cert. denied ––– U.S. ––––, 136 S.Ct.
2486 (2016)). Appellate courts, including the Court of Appeals, have generally applied
or taken an approach consistent with a two-step analysis in which they first “
‘determine whether the challenged legislation impinges upon conduct protected by
the Second Amendment’ “ and, if so, they then “determine the appropriate level of
scrutiny to apply and evaluate the constitutionality of the law using that level of
scrutiny” (United States v. Jimenez, 895 F.3d 228, 232 [2d Cir.2018]; see e.g. People v.
Hughes, 22 N.Y.3d 44, 51, 978 N.Y.S.2d 97, 1 N.E.3d 298 [2013]; New York State Rifle
& Pistol Assn., Inc., 804 F.3d at 254 and n. 49 [citing cases using a two-step
approach]).
IV
On this appeal, defendant contends that the court erred in denying his motion
to dismiss the criminal possession of a firearm count (Penal Law § 265.01–b [1])
because New York’s criminal prohibition on the possession of a handgun in the home
without a license, as applied to him, violates his right under the Second Amendment.
Although defendant mentions that Penal Law article 265 allows for prosecutorial

App-8

discretion in these circumstances to determine whether to pursue a class E felony (see
§ 265.01–b) or a class A misdemeanor (see § 265.01; see generally William C. Donnino,
Practice Commentaries, McKinney’s Cons Laws of NY, Book 39, Penal Law § 265.01
at 106 [2017 ed.]), that is not the premise of his challenge (cf. People v. Eboli, 34
N.Y.2d 281, 284 [1974]); nor does this case involve a constitutional challenge to the
licensing requirements or process upon a denial or revocation of such a license (cf.
Matter of Delgado v. Kelly, 127 A.D.3d 644, 644 [1st Dept. 2015], lv. denied 26 N.Y.3d
905, 2015 WL 5445688 [2015] ). Rather, defendant contends that New York may not
constitutionally impose any criminal sanction whatsoever on the unlicensed
possession of a handgun in the home. According to defendant, that criminal
prohibition should be subjected to strict scrutiny because it implicates conduct at the
core of the Second Amendment and cannot withstand such scrutiny. The People
respond that defendant’s contention is without merit. The Attorney General, as
intervenor, responds that defendant’s challenge fails at step one of the analysis and
that, even at step two, an intermediate level of scrutiny would apply and the criminal
prohibition on unlicensed possession of a handgun in the home would survive such
scrutiny.
The Attorney General presents arguments for rejecting defendant’s challenge
at the first step of the analysis based on the longstanding nature of New York’s
criminal prohibition relative to the presumptively lawful regulatory measures listed
as examples in Heller and the historical and traditional justifications for regulating
firearm possession (see e.g. National Rifle Assn. of Am., Inc. v. Bureau of Alcohol,

App-9

Tobacco, Firearms, and Explosives, 700 F.3d 185, 196–197 [5th Cir.2012], cert. denied
571 U.S. 1196, 134 S.Ct. 1364, 188 L.Ed.2d 296 [2014]; Heller v. District of Columbia,
670 F.3d 1244, 1253–1255 [D.C. Cir.2011] [Heller II]; United States v. Skoien, 614
F.3d 638, 640–641 [7th Cir.2010], cert. denied 562 U.S. 1303 [2011]; see generally 1
William Blackstone, Commentaries on the Laws of England at 139–140 [1765]).
However, we need not address that issue here because, even assuming, arguendo,
that defendant’s challenge advances beyond the first step of the analysis, we conclude
that New York’s criminal prohibition passes constitutional muster under Second
Amendment scrutiny at the second step (see generally Jimenez, 895 F.3d at 234).
Specifically, we conclude for the reasons that follow that, contrary to defendant’s
contention, the appropriate level of scrutiny is intermediate and the criminal
prohibition on the possession of a handgun in the home without a license withstands
such scrutiny.
With regard to the appropriate level of scrutiny, the Court of Appeals in
Hughes considered the defendant’s challenge to his conviction of criminal possession
of a weapon in the second degree stemming from his unlicensed possession of a
handgun in the home. The defendant’s challenge was on the ground that the
inapplicability of the home exception due to his prior misdemeanor conviction (see
Penal Law §§ 265.02[1]; 265.03[3]), which effectively elevated his criminally culpable
conduct from a class A misdemeanor to a class C felony, infringed upon his Second
Amendment right (22 N.Y.3d at 48–50). The Court—assuming, without deciding, that
Second Amendment scrutiny was appropriate—applied intermediate scrutiny after

App-10

concluding that several federal appellate courts had applied that level of scrutiny in
Second Amendment cases and that the Heller opinion itself pointed in that direction
(id. at 51, 978 N.Y.S.2d 97, 1 N.E.3d 298).
Second Circuit precedent also holds that “[l]aws that place substantial burdens
on core rights are examined using strict scrutiny” whereas “laws that place either
insubstantial burdens on conduct at the core of the Second Amendment or substantial
burdens on conduct outside the core of the Second Amendment (but nevertheless
implicated by it) can be examined using intermediate scrutiny” (Jimenez, 895 F.3d at
234). Here, the record does not establish that New York’s licensing requirement as
backed by a criminal penalty for noncompliance imposes anything more than an
insubstantial burden on conduct at the core of the Second Amendment, i.e., the right
of a law-abiding, responsible citizen to possess a handgun in the home for self-defense
(see generally id. at 234–235). Contrary to defendant’s contention that New York
“prevent[s] citizens from protecting themselves in their home[s] and penaliz[es] them
for doing so,” state law does not effectuate a complete ban on the possession of
handguns in the home (cf. McDonald, 561 U.S. at 750; Heller, 554 U.S. at 629; see
generally Perkins, 62 A.D.3d at 1161). Instead, “New York’s criminal weapon
possession laws prohibit only unlicensed possession of handguns. A person who has
a valid, applicable license for his or her handgun commits no crime” (Hughes, 22
N.Y.3d at 50; see Penal Law § 265.20 [a][3]). Moreover, the Court of Appeals has noted
that a license to possess a handgun in the home is not “difficult to come by” (Hughes,
22 N.Y.3d at 50). There is no evidence on this record to support defendant’s conclusory

App-11

assertions that the expense and logistics of obtaining a license constitute substantial
burdens on the right to possess a handgun in the home for self-defense (see Kwong v.
Bloomberg, 723 F.3d 160, 164–165 [2d Cir.2013], cert. denied 572 U.S. 1149 [2014];
see also United States v. Marzzarella, 614 F.3d 85, 97 [3d Cir.2010], cert. denied 562
U.S. 1158 [2011]; see generally Heller II, 670 F.3d at 1254–1255).
In light of the holding in Hughes, and as reinforced by persuasive federal case
law, we conclude that intermediate scrutiny is the appropriate level by which to
evaluate the constitutionality of the criminal prohibition on the possession of a
handgun in the home without a license.
With regard to that evaluation, “[i]ntermediate scrutiny requires us to ask
whether a challenged statute bears a substantial relationship to the achievement of
an important governmental objective” (Hughes, 22 N.Y.3d at 51). First, it is beyond
dispute that “New York has substantial, indeed compelling, governmental interests
in public safety and crime prevention” (Kachalsky, 701 F.3d at 97; see Hughes, 22
N.Y.3d at 52; New York State Rifle & Pistol Assn., Inc., 804 F.3d at 261–262; Schulz
v. State of N.Y. Exec., 134 A.D.3d 52, 56–57 [3d Dept. 2015], appeal dismissed 26
N.Y.3d 1139 [2016], reconsideration denied 27 N.Y.3d 1047 [2016], lv. denied 27
N.Y.3d 907 [2016] ). Those concerns include the state’s “substantial and legitimate
interest and[,] indeed, . . . grave responsibility, in insuring the safety of the general
public from individuals who, by their conduct, have shown” that they should not be
entrusted with a dangerous instrument (Matter of Galletta v. Crandall, 107 A.D.3d
1632, 1632 [4th Dept. 2013] [internal quotation marks omitted] ). Further, we reject

App-12

defendant’s contention that the state’s interest in this regard does not extend into the
home and is limited to “prevent[ing] public, violent conduct from illegal gun use”
(emphasis added). It is well established that the state’s interest includes protecting
persons within the home from violence and danger attributable to individuals who
pose a safety risk if allowed to possess a handgun (see Delgado, 127 A.D.3d at 644;
Matter of Lipton v. Ward, 116 A.D.2d 474, 475–477 [1st Dept. 1986]).
Second, the criminal prohibition on the unlicensed possession of a handgun,
including in the home, bears a substantial relationship to the state’s interests. “In
the context of firearm regulation, the legislature is ‘far better equipped than the
judiciary’ to make sensitive public policy judgments (within constitutional limits)
concerning the dangers in carrying [and possessing] firearms and the manner to
combat those risks” (Kachalsky, 701 F.3d at 97). We are satisfied that New York “
‘has drawn reasonable inferences based on substantial evidence’ “ in formulating its
judgment on the subject at issue (id.; see e.g. id. at 97–98; Rep. of the N.Y. State Joint
Legis. Comm. on Firearms and Ammunition, 1965 N.Y. Legis. Doc. No. 6 at 7–18).
Contrary to defendant’s assertions, we conclude that the possibility of a criminal
penalty is well-suited to promote compliance with the licensing requirement for
handgun possession in furtherance of the state’s interests (see Hughes, 22 N.Y.3d at
52).
V
Defendant further contends that reversal is required because the court erred
in denying his Batson application concerning the prosecutor’s use of a peremptory

App-13

challenge to exclude a black prospective juror. We reject that contention. Inasmuch
as the prosecutor offered a race-neutral reason for the challenge and the court
thereafter “ruled on the ultimate issue” by determining, albeit implicitly, that those
reasons were not pretextual, the issue of the sufficiency of defendant’s prima facie
showing of discrimination at step one of the Batson test is moot (People v. Smocum,
99 N.Y.2d 418, 423 [2003]; see People v. Jiles, 158 A.D.3d 75, 78 [4th Dept. 2017], lv.
denied 31 N.Y.3d 1149 [2018]; cf. People v. Bridgeforth, 28 N.Y.3d 567, 575–576
[2016]). Contrary to defendant’s contention, we conclude that the court properly
determined at step two that the People met their burden of offering a facially raceneutral explanation for the challenge (see People v. Lee, 80 A.D.3d 877, 879 [3d Dept.
2011], lv. denied 16 N.Y.3d 833 [2011]). Defendant failed to preserve for our review
his contention that the prosecutor’s explanation was pretextual because the
prosecutor engaged in disparate treatment of similarly situated prospective jurors
(see People v. Lucca, 165 A.D.3d 414, 414 [1st Dept. 2018], lv. denied 32 N.Y.3d 1126
[2018]; Lee, 80 A.D.3d at 879; see generally Smocum, 99 N.Y.2d at 423), and we decline
to exercise our power to review that contention as a matter of discretion in the
interest of justice (see CPL 470.15[6][a] ).
***
Accordingly, we conclude that the judgment convicting defendant of criminal
possession of a firearm (Penal Law § 265.01–b [1] ) should be affirmed.

Entered:

January 31, 2020

Mark W. Bennett, Clerk of the Court

App-14

APPENDIX B — DECISION AND ORDER
OF THE SUPREME COURT OF NEW YORK,
APPELLATE DIVISION, FOURTH DEPARTMENT,
DENYING MOTION FOR LEAVE TO APPEAL
TO THE NEW YORK COURT OF APPEALS
DATED JUNE 29, 2020
SUPREME COURT OF THE STATE OF NEW YORK
Appellate Division, Fourth Judicial Department
KA 18-00147
THE PEOPLE OF THE STATE OF NEW YORK,
RESPONDENT,
V.
MELQUAN TUCKER,
DEFENDANT-APPELLANT.
Indictment No. 2016-1409
I, Erin M. Peradotto, Associate Justice of the Appellate Division, Fourth
Judicial Department, do hereby certify that, upon the motion of appellate pursuant
to CPL 46-.20 for permission to appeal to the Court of Appeals from the order of this
Court entered January 31, 2020, which affirmed a judgment of the Supreme Court,
Erie County, rendered January 8, 2018, there is no question of law presented that
ought to be reviewed by the Court of Appeals, and permission to appeal is hereby
denied.
Dated:

June 29, 2020

App-15

/s/
Hon. Erin M. Peradotto
Associate Justice
Entered:

July 2, 2020

App-16

APPENDIX C —ORDER OF THE SUPREME COURT
OF NEW YORK, IN THE COUNTY OF ERIE,
DENYING MOTION TO DISMISS COUNT BASED ON
CONSTITUTIONAL CLAIMS
DATED AUGUST 28, 2017
At a term of this Court, held in
And for the County of Erie and State of
New York on July 19, 2017
Present: Hon. Russell P. Buscaglia
STATE OF NEW YORK
SUPREME COURT ; COUNTY OF ERIE
The People of the State of New York,
v.
Melquan Tucker, Defendant
ORDER
Ind. 01409-2016
Upon the transcript attached to this Order, the following decisions have been
decided by this Court as follows:
1.

Written application for the search warrant herein will not be disclosed
to the defense.

2.

Defendant Melquan Tucker’s motion to dismiss the firearm count of
the Indictment is denied.

App-17

3.

The District Attorney is to advise the defense by July 27, 2017, as to
the tapes of the phone conversations the People have in their
possession.

4.

The issue of the operability of the firearm remains an issue for the
jury.

5.

The defense motion to preclude the use of the recorded conversations
is denied.

6.

A Sandoval and Molineux hearing, if required, will be held prior to
trial.

7.

On August 1, 2017 Molineux and issues would be noticed to the
defense.

8.

The search warrant is based on the requisite probable cause.

So Ordered this 28th Day of August, 2017 at Buffalo, New York.

/s/
Hon. Russell P. Buscaglia
GRANTED: August 29, 2017

